<html>
<title> - THE U.S. FOREST SERVICE'S BUDGET REQUEST FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-493]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-493

     THE U.S. FOREST SERVICE'S BUDGET REQUEST FOR FISCAL YEAR 2017

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 8, 2016

                               __________


                       Printed for the use of the
               Committee on Energy and Natural Resources
               
               

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]               
               
               

         Available via the World Wide Web: http://www.fdsys.gov
         
         
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
21-967                     WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3d5a4d527d5e484e495558514d135e525013">[email&#160;protected]</a>          
         
         
         
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, Jr., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia
                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Natural Resources Policy Director
            Angela Becker-Dippman, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                                WITNESS

Tidwell, Thomas, Chief, U.S. Forest Service, U.S. Department of 
  Agriculture....................................................     8

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria:
    Opening Statement............................................     3
    Chart entitled ``60% Increase in Firefighting Funding''......     4
    Chart entitled ``Fire Suppression Costs Are Projected to Grow 
      Significantly''............................................     6
Congress of the United States (Gardner, Tipton, Coffman, Lamborn, 
  Buck):
    Letter to Secretary Tom Vilsack dated January 20, 2016.......    45
Gardner, Hon. Cory:
    Memorandum of Understanding between the City of Colorado 
      Springs by and through its Parks, Recreation and Cultural 
      Services Department and the Cheyenne Mountain Zoo, Colorado 
      Parks and Wildlife-Cheyenne Mountain State Park, El Paso 
      County, and the Broadmoor Hotel, for Coordinated Treatment 
      of the Douglas-fir Tussock Moth and the Western Spruce 
      Budworm....................................................    38
Hickenlooper, Hon. John W.:
    Letter to Secretary Tom Vilsack dated April 6, 2015..........    43
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Tidwell, Thomas:
    Opening Statement............................................     8
    Written Testimony............................................    11
    Responses to Questions for the Record........................    58

 
     THE U.S. FOREST SERVICE'S BUDGET REQUEST FOR FISCAL YEAR 2017

                              ----------                              


                         TUESDAY, MARCH 8, 2016

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning, everyone. Good morning, Chief.
    We are here this morning to review the President's request 
for the Forest Service for Fiscal Year 2017.
    Chief Tidwell, it is good to be able to welcome you back to 
the Committee. We appreciate you being here to explain the 
President's proposal.
    It is probably not going to be a surprise to you that I am 
not enamored with it. In fact, I have got some issues with 
several aspects of it. I will just mention a couple of them 
this morning in my opening statement.
    We have several proposals here within the budget, a number 
of mandatory spending proposals, without providing offsets. I 
have mentioned this as other members of the Cabinet have come 
before us that when we have mandatory spending proposals with 
no offsets that is problematic.
    The Secure Rural Schools program, SRS, is clearly an 
example of that. We have reached a point where if we are not 
cutting trees on federal lands, and we hardly are, then 
counties, parishes and boroughs are going to be cutting their 
budgets. That is not acceptable. The timber industry can be 
sustainable but the funding required for SRS without offsets 
and in the absence of timber harvesting is not.
    We have many communities around the country, particularly 
in the West, that are dependent economically on the active 
management of our national forests. As you know, Southeast 
Alaska is full of such communities, and this is not a budget 
that they are going to find appealing.
    On the Tongass, the Secretary of Agriculture has directed 
the Forest Service to expedite a transition away from old 
growth timber harvesting towards a timber program focused on 
predominately young growth. We know that this is a Secretarial 
mandate and it will fundamentally change the way the Tongass is 
managed, but there is no mention of the transition in this 
budget to explain how it will be executed and how it will be 
funded. Yet that does not stop the Forest Service from moving 
on a plan amendment to lock in this transition before this 
Administration leaves office.
    I think that the Forest Service needs to do what is right 
and what the Tongass Advisory Committee called for in its 
recommendations and that is a comprehensive, stand level 
inventory to address the uncertainties that exist in the 
amount, volume and timing of the availability of young growth 
to support transition.
    A successful transition will only be possible if it is 
grounded in strong science and backed by comprehensive data. As 
a starting point, as a matter of common sense, really, we need 
a complete inventory before we allow a plan amendment to move 
forward.
    In the meantime, it is critical that the Forest Service 
provide enough timber to meet market demand because if you do 
not do that, we have had this conversation so many times, if we 
do not do that, there is not any industry left to transition.
    Another issue that I know that we will hear a lot of 
discussion about this morning is how this budget proposes to 
address wildfire. Again the Forest Service budget asks Congress 
to fund just 70 percent of the ten-year average of suppression 
costs. A proposed cap adjustment would pay for the remaining 30 
percent as well as any costs above the ten-year average. This 
idea has been rejected every year since it was first proposed 
in the FY 2015 budget.
    There is not an agreement here in Congress on whether or 
how to address what this proposal is aimed at, the growth of 
fire programs as a percentage of the Forest Service's annual 
budget. But what we do agree on, and I think you will probably 
hear it echoed from all of us this morning, what we agree on is 
putting an end to the unsustainable practice of fire borrowing. 
We know that we cannot continue to fight fires by diverting 
funds from other parts of the Forest Service budget, and we 
agree with you there.
    That is why last year we worked so hard to include wildfire 
provisions in the Omnibus, and I think that they were proposals 
that were responsible and they were pragmatic. It included $1.6 
billion for fire suppression which is $600 million above the 
average cost of fighting wildfire over the past ten years. It 
included $545 million for hazardous fuels reduction, and it 
also included $360 million for the Forest Service timber 
program which will help us begin to resume active management of 
our forests.
    So barring a truly record setting fire season this year, 
fire borrowing should not be an issue for the rest of this 
fiscal year. That gives us some time here to advance 
legislation that addresses wildfire budgeting and how we manage 
our forests. We need to do both at once because we know the 
wildfire problem is not just a budgeting problem, it is also a 
management problem.
    High up-front costs, long planning horizons and regulatory 
requirements, including what seem like an unending 
environmental review process, are impeding our ability to 
implement treatments at the pace and the scale that wildfires 
are occurring. We must also work with our state agencies, local 
communities and the public to increase community preparedness 
and install fire breaks to break up fuel connectivity to keep 
fires small.
    As you know, we have a vested interest in my state to make 
sure that we are doing this right. About half of the 10 million 
acres that burned in last year's fire season were in Alaska. We 
have already had our second wildfire this year in the state. 
This is what, March 8th? And we have already had our second.
    So know Chief, that I am eager to work with you as well as 
the other members of this Committee and other Committees that 
have a role on this issue. I know that we all agree that we 
have some real challenges here that will only grow worse if we 
fail to address them. I look forward to working with you to 
address these challenges and others.
    With that I will turn to Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL,
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thank you, 
Chief, for coming today to discuss the budget.
    As you know, in 2014 Washington experienced the largest and 
worst fire in our state history, the Carlton Complex. In 2015, 
as we were still recovering from the Carlton Complex, 
Washington was hit hard again, this time even harder, and 
experienced the worst fire season in the history of our state. 
In one month more than one million acres of Washington burned. 
That is an area larger than the size of the State of Rhode 
Island.
    Adding to economic loss and the loss of homes and 
businesses, we experienced tragic loss of life. Three 
firefighters were killed and another was severely burned in an 
entrapment. The Colville Tribe lost 20 percent of its timber. 
That was about $1 billion worth of timber.
    I spent last summer traveling the state, meeting with 
firefighters and residents to talk about everything from the 
evacuation process to the loss of their homes to numerous 
things that policy makers can do to help so that fewer homes 
burn down, so that we keep our firefighters safe, and to 
decrease the intensity of these fires so that they can be 
better managed.
    I appreciate that the Committee and my colleague, Senator 
Barrasso, attended a field hearing in Seattle to talk about 
these issues as well. All of this underscores the importance of 
addressing these issues and getting the right solutions.
    We need to better protect our communities and our 
firefighters from these wildfires. Guided by science, we need 
to invest in and pursue the policies that will make our forests 
more resilient to these wildfires. We need more equipment and 
more efficient use of existing resources to have a more hasty 
response to the initial attack of these fires.
    Fortunately, as you can see from the chart behind me--my 
colleague, Senator Murkowski, mentioned the Forest Service had 
a 60 percent increase in firefighting funding for this year, 
giving us a window to come up with a functional solution. We 
certainly appreciate the work of my colleagues in getting that 
60 percent increase.
    [The information referred to follows:]
    
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    I know that Chairwoman Murkowski's state also experienced 
one of its worst fire seasons in Alaska's history, and we have 
been working together for months to try to get ahead of this 
problem.
    We have had several hearings where we have talked about the 
need for different solutions to get different results. 
Particularly we need a better fire preparedness strategy. 
Better fire preparedness will reduce the risk posed to 
communities and our forests and reduce the cost to our nation.
    Some of these estimates are that we could be spending 
anywhere between $2 and $4 billion a year for the next several 
years, given the changes that we are seeing in conditions. We 
need to start--obviously, once we get the Energy bill done--to 
focus on this issue and come up with legislation that will help 
all our communities. I believe that legislation should set key 
priorities of preparedness.
    [The information referred to follows:]
    
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    We must increase our communities' preparedness through 
activities such as hazardous fuel reduction, fire wise 
programs, changing the time and function of prescribed burns, 
and risk mapping.
    We also need to improve the efficiency of our operations by 
making sure aircraft are available when needed and improving 
the safety of our firefighters. For us in the Northwest, it 
means getting a better Doppler system just to forecast weather 
conditions, since we have a blind spot right in the central 
part of our state.
    We can invest in and prioritize fuel treatments that we 
know make a difference in at risk areas such as prescribed 
burns and mechanical thinning. I hope that we will, in the 
future, talk a lot about ideas to be very innovative on this. 
To me it makes no sense to talk about what you do after the 
fire has happened. We should be talking about what we can do to 
minimize the risk to everyone, and specifically, the $2 to $4 
billion cost we are looking at each year from these fires.
    The funding that was awarded last week to groups in 
Washington through the Joint Chiefs' Landscape Restoration 
Partnership is a great example of this. Thank you. It will help 
at-risk communities with fire preparedness in places like 
Kittitas, Chelan, and Okanogan Counties.
    Finally, we can increase our use of technology, including 
unmanned aerial vehicles and GPS, so we can more accurately see 
the locations of spot fires so that firefighters in the 
community can be sent out to help.
    I look forward to working out the remaining details with 
many of the members of this Committee, and certainly Chairwoman 
Murkowski, as we try to bring together legislative solutions 
here.
    Turning to Secure Rural Schools, if I could for a moment, I 
want to express my concern in the delay in the distribution of 
the 2015 Secure Rural Schools payments. These 2015 payments 
still have not been distributed to communities. The fiscal 
years of counties in Washington begin in a few months. I can't 
imagine some of these counties trying to plan their annual 
budget not knowing how much they are going to get from the 
Forest Service.
    In Skamania County, the Secure Rural Schools payments 
represent more than 15 percent of their budget, so these 
payments pay the salaries of more than half of Skamania 
County's 65 employees. So for our rural and timber communities 
these are very serious issues.
    I noticed there was not a lot of detail in the 
Administration's proposal to reauthorize the Secure Rural 
Schools program but nonetheless, I look forward to working with 
you and the Chairwoman and members of this Committee, including 
Senator Wyden, over the coming months to extend this crucial 
program.
    I also want to thank you, Chief Tidwell, for last week's 
announcement concerning recreational permits. I completely 
agree that we need to be finding ways to streamline the Forest 
Service process in order to make it easier for more young 
people to get outdoors.
    I know Secretary Jewell announced a similar proposal across 
all Interior lands programs and it was right here in this room 
at last year's budget hearing when you and I talked about the 
problems with the YMCA of Greater Seattle and the Forest 
Service. I am delighted to hear that you and Secretary Jewell 
are embarking on what, I think, is a very significant process 
to make it easier for young people, like those served by the 
YMCA, to move through the current permit process and open the 
doors to hundreds of young people and organizations.
    So despite the good points, there are gaps in this year's 
budget request, and we should work to address these. We can do 
more to work together on recreational access.
    Small businesses in my state that rely on the recreational 
economy are confused about some of the priorities in the 
budget. For example, the Forest Service is proposing to cut 
road maintenance and is currently exploring ways to close some 
of the major recreational routes in my state. We are going to 
hear loudly from people on this, so I intend to ask a question 
and get some details on that.
    In the same budget, the agency is proposing significant 
increases in building new roads, so people are trying to 
understand the need to build new roads versus the backlog of 
maintenance of existing roads, without much of an explanation. 
We want to understand how we can be sure that these priorities 
are met on both sides.
    I want to take a point of personal privilege, if I could, 
and conclude my remarks by recognizing the passing of my 
cousin, Shelia Cantwell. She was, like many of the Forest 
Service employees, dedicated to her career. She served 23 years 
in the Forest Service working for the Mount Whitney Ranger 
Station in Lone Pine, California.
    Like many other people in the Forest Service, they do their 
work. They love their job. I want to thank all the people of 
the Forest Service for their hard work and dedication.
    I turn back to you, Senator Murkowski.
    The Chairman. Thank you, Senator Cantwell. Know that we too 
share the support for the good people who work for us and 
recognize your family member as well.
    Chief Tidwell, welcome again to the Committee. Thank you 
for being here, and we look forward to your testimony.
    I do not know, Mr. Dixon, if you will also be presenting 
comments this morning, or if you are here in a supporting role, 
which we appreciate as the Director of Strategic Planning for 
Budget and Accountability at the U.S. Forest Service. So thank 
you for being here as well.
    With that, Chief, if you would like to proceed.

 STATEMENT OF MR. THOMAS TIDWELL, CHIEF, U.S. FOREST SERVICE, 
                 U.S. DEPARTMENT OF AGRICULTURE

    Mr. Tidwell. Well Madam Chair, Ranking Member Cantwell, 
members of the Committee, I do appreciate the chance to be up 
here to be able to discuss our 2017 budget request.
    Our request for '17 is very similar to what we had in '16 
which requires us to make some really tough decisions--with 
basically a flat budget. This request will allow us to continue 
to increase our pace and scale to restore the nation's forests 
and grasslands by treating another 2.9 million acres to restore 
forest health and forest resiliency and improve watershed 
conditions.
    It also allows us to decommission 2,000 miles of unneeded 
roads, restore over 3,400 miles of streams and improve the 
overall function on 22 different watersheds and with one of the 
key outputs from this work, 3.2 billion board feet of timber.
    It maintains our 23 CFLRP projects and allows us to 
continue to work with the states to expand getting work done 
through the Farm bill authorities and with the Good Neighbor 
Authority.
    It also allows us to continue to reduce the threat to 
firefighters and communities by treating 1.6 million acres of 
the highest priority areas of the wildland urban interface 
(WUI) to reduce hazardous fuels, plus another 400,000 acres 
that are outside of the WUI.
    Through our state and private programs, we're focused on 
using a landscape-scale restoration approach that allows our 
state foresters to be able to look at larger landscapes and 
accomplish multiple objectives by having a combination of 
funds.
    And with our Research and Development programs, we're going 
to continue to do our work to be able to understand what we 
need to do to be able to restore forests, to address the 
invasives and insect and disease outbreaks, to continue our 
work to be able to find ways to expand current markets and 
develop new markets for wood, and to be able to make use of the 
biomass that just has to be removed from our landscapes for us 
to be able to restore our healthy forests.
    We also provide for an adequate level of fire suppression, 
to be able to deal with fires and continue to suppress fires 
where we need to and, at the same time, be able to manage fires 
in the back country. We'll have 21 large air tankers, 300-plus 
helicopters, over 1,000 engines and of course, our hot shot 
crews.
    The thing I need to stress, and I appreciate the support 
from this Committee, is finding a solution to paying for the 
cost of fire suppression. I appreciate the additional money 
that was provided in FY16 into the FLAME account, but I think 
we all have seen what happens with the FLAME account and where 
that will help us this one year, it is not a solution.
    We just have to find a way to be able to permanently stop 
the transfer, the disruption of our work every fall. We need to 
find an alternative to the ten-year average. That just no 
longer is working. It's not a viable budget approach.
    And we need to, I think, come to agreement, understanding 
that there is one or two percent of these fires that occur 
every year that really are a natural disaster and they should 
be funded as a natural disaster.
    So we are anxious to be able to work with this Committee 
and work with the House to be able to find a solution so that 
once and for all we can actually stop this disruptive practice 
and allow us to really focus on what the public needs, to be 
able to give the Committees, the Appropriators, some discretion 
so they don't have to use up all of their discretion to be able 
to pay for fires.
    One key note. From just FY15 to FY17 in our proposed FY17 
budget, the ten-year average goes up another $237 million. 
That's what we're up against. And what drives these costs, the 
primary driver is homes in the wildland urban interface. That 
along with the changing conditions, our fire seasons are 68 
days longer. It's a good two to three months longer than what 
we had ten years ago. Those things are not going to change.
    We can make a difference by reducing the hazardous fuels. 
We can reduce the severity of fires. We can make it safer for 
our firefighters, for our communities, but it's going to take a 
combination of fixing the budget and allowing us to then be 
more proactive to get out in front of this. It's one of the 
best job creators we have to restore our forests.
    So I appreciate the time you've given me this morning. I 
look forward to your questions.
    [The prepared statement of Mr. Tidwell follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Chief.
    Know that Senator Cantwell and I had hoped that March would 
be the month that we would really be able to focus on spending 
a lot of time, both in and out of Committee, on the wildfire 
piece. I think we are pushed back a little bit because of 
trying to get this energy bill across the finish line, but know 
that I certainly remain committed to trying to figure this out 
for the long-term rather than taking a year by year approach.
    I want to begin my questions with the Tongass and the issue 
that I raised in my opening statement about this transition to 
young growth without first completing a stand level inventory 
of the young growth.
    Last year the Forest Service provided approximately $4 
million from its budget for the transition framework. About $2 
million has gone to start work on young growth inventory 
studies. So far, I understand about $4 to $6 million more is 
likely needed for the studies and additional inventory work. 
The interesting thing is both the timber industry and the 
environmental groups agree that this work is needed to 
basically prove this out.
    Can you give me information this morning in terms of how 
much funding you are proposing to spend to support young growth 
transition and where the money is coming from, because we just 
do not see it listed in the budget proposal, despite this being 
a secretary-mandated initiative?
    Mr. Tidwell. Well Madam Chair, the budget funding we'll be 
spending this year to be able to continue the stand level 
inventory is just part of the funding that we've allocated to 
the region. So with this--
    The Chairman. So do you take it from other parts within the 
Forest Service budget allocated for Alaska?
    Mr. Tidwell. It's part of the funding that we receive from 
our forest products to be able to do forest stand inventory. 
And so that's part of the budget that Region 10 is receiving to 
be able to do that work with a cost share agreement with the 
State of Alaska, working with the state forester, to be able to 
do that stand level inventory so that we are developing 
information for project implementation.
    Stand level inventory is not information that's needed to 
be able to amend the forest plan but for us to be able to move 
forward with the design of projects into the future because 
this transition is going to occur in the out years. It's not 
occurring today.
    But we are moving forward with that. And so we're going to 
continue to not only do the stand level inventory, but we're 
also doing wood quality studies from our research and 
development folks so that we have a better understanding about 
where's the potential markets for the future for young growth 
wood, that type of wood that will come off of these young 
growth forests.
    In addition to that, we're continuing to do our study about 
how to better understand how to thin out these forests. We've 
been doing a lot of commercial thinning over the years in the 
second growth stands. And we've had a study that's been going 
on for ten years. And we want to continue to do that so that we 
better understand how to manage these stands as we move 
forward.
    The Chairman. Let me ask then, because I am concerned that 
if you have not specifically allocated within the budget 
funding for these inventory studies, you are just taking it out 
of the region's accounts. Again, where we see things short-
changed.
    We had a conversation just last year about how the 
recreation funding within Alaska, within our region, had 
effectively been cut back dramatically when you put it side-by-
side to what was going on within the rest of the country. We 
have asked that be rectified and that is another question that 
I have for you because I cannot tell that it has been.
    Again, it speaks to the issue. If you have not allocated 
more for this inventory and you have at least three independent 
analyses that say that the current young growth stands are too 
small, that there are too few to support a local manufacturing 
industry, how can you make a plausible determination that we 
can do this transition?
    I am looking at this, recognizing how long it takes to do 
this study and the cost associated with it, and I am not seeing 
it specifically in your budget. So the question this morning is 
whether or not the Forest Service will consider postponing this 
transition until we have a complete, young growth inventory and 
a financial analysis that are completed in order to determine 
whether or not a transition is even feasible?
    Mr. Tidwell. Senator, it's essential that we move forward 
and complete the amendment to the forest plan.
    The Chairman. But don't we have to have the study and the 
money?
    Mr. Tidwell. Not for a forest plan amendment, no. It's been 
two decades.
    The Chairman. So then you have a forest plan amendment that 
is not based on a strong, sound analysis or the science to 
support it.
    Mr. Tidwell. Two decades of controversy and litigation 
around old growth harvest and roadless, and that's gotten us 
nowhere.
    The Chairman. I understand that.
    Mr. Tidwell. This is--
    The Chairman. But you still have to know that it is 
possible to get to a second growth industry because we cannot 
make those trees grow any faster. That is our problem.
    Mr. Tidwell. Well part of it is to also develop new markets 
for the second growth. And we're working together with 
Sealaska, with Mental Health Trust and the State of Alaska.
    The Chairman. New markets are good, Chief, but you still 
have to have trees that are mature enough to harvest.
    I am going to try to be more respectful of everybody's five 
minutes because last hearing I was very generous with folks. I 
am going to try to keep to the five minutes so we can get to 
everyone's questions.
    I am going to turn to Senator Cantwell now, because I will 
have another opportunity. Thank you.
    Senator Cantwell. Thank you, Madam Chair.
    Chief, you mentioned a couple of things when you were 
talking about getting at the front end of the problem and the 
costs. You are saying homes in the WUI, the wildland urban 
interface, and changing of conditions. I am assuming you are 
talking about weather and climate change.
    Mr. Tidwell. Yes.
    Senator Cantwell. Do you think that an increased 
preparedness strategy, with treatments such as prescribed burns 
and fuel reduction, would yield dividends in this process? And 
do you think that ten-year stewardship contracts have been 
successful? Do you think that long-term contracts, if we work 
out the scoring and cancellation ceilings, makes things more 
predictable for companies bidding on prevention work? And you 
mentioned product value. What do you think of cross-laminated 
timber as being something in that mix of solutions?
    Mr. Tidwell. Well Senator, the work we've been doing over 
the years is making a difference, and we have dozens to 
probably hundreds of examples now where we have thinned out our 
forests and it has reduced the threat. It's made it easier for 
us to suppress the fires, made it safer for our firefighters. 
So that combination of doing a mechanical thinning, timber 
harvest and using prescribed burns is making a difference to 
reduce the overall threat.
    In addition to the stewardship contracts, they have proven 
to be a very, very effective tool, not only to build more 
trust, more support for the work, but it provides that 
certainly, especially the longer-term, seven- to ten-year 
contracts. It provides a certainty for operators then to make 
the investments, they can get the loans because they know that 
the work is there, and it's making a difference.
    Do we need to look to find ways to make that easier for not 
only the operator but at times for the agency? Yes, I'm 
interested in being able to do that.
    Our biggest challenge right now is to be able to accelerate 
the work, expand the work in a way. And the problem that I have 
and I think it goes back to the Chair's, Madam Chair's comment. 
I'd love to be up here asking for more money. I'd like to have 
more money.
    I can make a strong case to be asking for an increase in 
our forest products budget, a strong case for our recreation 
budget. But once again, any increase the Forest Service sees in 
the budget goes into the cost of fire suppression and that is a 
burden we just can no longer bear.
    Senator Cantwell. Well if I could ask about that, Chief, 
because I think the research I have is that 88 percent of the 
Forest Service's fuel treatments were effective at stopping 
wildfires that burned in FY15. So what I would like is to get 
from the Forest Service an analysis of what you think a robust 
program on preparedness and fuel reduction would look like in 
reducing wildfire losses even if they are just guesstimates 
because we don't know. I think the Carlton Complex Fire that 
burned over 100,000 acres in an afternoon is an example of how 
we never know when something like that is going to happen.
    But with 88 percent effectiveness with fuel reductions, why 
can't we look at what an aggressive program would be and come 
up with some estimates on how--if we are predicting between $2 
and $4 billion a year in cost to the Federal Government for 
suppression--what percentage reduction might we see in that 
cost?
    Again, I know that there is a little bit of guesswork here 
because you don't know everything, like the weather, but it 
seems to me that we need to get a better understanding of this.
    Do you think that more than ten year contracts are needed?
    Mr. Tidwell. Yes, I definitely, I think it's one of the 
best products that we have. And the more of those that we can 
get in place, the better off we're all going to be. So it's one 
of the things we'd like to continue to expand.
    We're doing about 30 percent of our work now through 
stewardship contracting, but I would definitely like to see 
more of these long-term contracts.
    Senator Cantwell. And did you say something about cross-
laminated timber (CLT)? Did you comment on that as a valued 
product?
    Mr. Tidwell. On CLT?
    Senator Cantwell. Yes.
    Mr. Tidwell. It's another one of the efforts that we have 
from our forest products lab to be able to develop new markets. 
And currently we have two plants in the United States that are 
using CLT. One of those plants is having to import their 
material.
    This is a great opportunity for us to be able to expand to 
be able to use the small-diameter material as CLT for tall 
buildings. CLT is one of the things we're trying to encourage 
engineers and architects to use in tall buildings.
    It's CLTs. That product is what allows us to be able to 
build these tall buildings and we're moving forward with a 
couple of examples of those to be able to show people that wood 
is a good tall building material.
    Senator Cantwell. Thank you.
    Thank you, Madam Chair.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you, Madam Chairman.
    Chief Tidwell, it is good to see you again.
    I have some concerns, serious concerns, about the way that 
the Forest Service is prioritizing its management objectives. 
The budget makes it clear the Forest Service values expansion 
of costly counterproductive programs, as I see it, much more 
than actual maintenance and management of current assets.
    The funding increases for new roads, for land acquisitions 
while funding for capital improvement and maintenance, road 
maintenance, timber products, remains level or actually goes 
down a bit. It seems that the Forest Service should reevaluate 
its priorities. Not only would investment in active management 
and maintenance of current assets lower the future maintenance 
backlog, but I think it would actually help improve the forest 
user's experience, forest health, watershed health and help 
decrease the incidence and severity of the catastrophic 
wildfires that we are all concerned about.
    So I just want you, if you could, to please explain how you 
justify adding this administrative staff, new lands, new roads, 
when the Forest Service currently has about a $5 billion 
maintenance backlog of projects and is really unable, at this 
point, to address these within the current priority structure.
    Mr. Tidwell. With our request for LWCF funding which is, I 
think, it's very close to what we've received for the last few 
years. Once again, it's targeted on acquiring those key 
properties. A lot of it is to provide access to be able to 
guarantee access to the public.
    And once again, the cases that I've personally dealt with, 
every time we've acquired those lands it actually reduces our 
administrative costs. It allows us to do much larger projects. 
We don't have to worry about boundary management, so it's 
really an investment. And it's something that the public is 
very, very interested in us acquiring these key parcels.
    With our roads' budget, the request is less than what we 
received last year. I wish we could ask for more, but when we 
have to look at finding that additional funding in a 
constrained budget to be able to put it into fire suppression, 
something has to give.
    And I'll tell you there are very difficult choices that we 
have to make. And so that's one of the few areas that actually 
went down in our request between '16 and '17. But you also see 
that we're asking for additional money in the cost of fire 
suppression. That's what we're up against.
    Senator Barrasso. I want to switch to sage grouse.
    Last September the Forest Service, Department of the 
Interior, announced Federal landscape-scale conservation plans 
for the Greater Sage Grouse habitat with 11 Western states 
impacted. The plans are controversial. Given the successful 
conservation work that has already been undertaken in states 
like Wyoming, with our special management plans, five months 
have now passed since the announcement and yet to my knowledge 
agency personnel on the ground in Wyoming still do not have 
guidance documents about how or when the agency intends to 
implement the plans.
    It has not stopped the agency though from stating that 
seasonal uses like razing on local forests may change. So how 
is it possible that the agency staff can notify permittees that 
agency policy might change when they really have not yet even 
received guidance documents?
    Mr. Tidwell. Well Senator, what we're starting now is to 
actually have state-wide meetings to be able to meet with folks 
throughout the state and to be able to talk about how to move 
forward with this.
    We have, like, a two to three year period of time, and so 
we want to focus on what are the changes that we can make? 
Where can we apply the investments we want to make to be able 
to improve sage grouse habitat and at the same time to work 
with permittees about how they can modify their operations over 
the next three years to be able to mitigate some of the 
impacts?
    The Forest Service, we've--we're going to put over $7 
million into habitat improvement projects. And then with our 
FY17 budget request, we'll actually increase that, along with 
all of the money that the Bureau of Land Management is 
spending. But our plan here is to be able to work with folks to 
be able to address these issues.
    Your state has just done an excellent job to be able to put 
the information together. And so, we're optimistic that, give 
us a few years, we'll be able to, you know, mitigate the 
impacts, improve sage grouse habitat, but at the same time, 
ensure the ongoing uses are still there.
    Senator Barrasso. Well, and that is my concern in terms of 
the--I have been to Wyoming the last couple of weekends hearing 
specifically about that, asking that you communicate more 
clearly with permittees, with the agency personnel, in the 
Governor's office because you are right, Wyoming has done an 
exceptional job. It has been highlighted as a place that has 
done it right, and we do not want to compromise the hard work 
being done in Wyoming and other Western states to conserve the 
sage grouse.
    So, thank you. Thank you, Madam Chairman.
    The Chairman. Thank you.
    Senator Heinrich.
    Senator Heinrich. Thank you, Madam Chair.
    Chief Tidwell, welcome back.
    I want to start with the Collaborative Forest Landscape 
Restoration Program (CFLRP). We have a couple of projects in 
New Mexico that have done some really great thinning work. It 
is a tool in the toolbox that is working for all the things 
that we say we want to do on our forests.
    We are about seven years into the program, and I am 
starting to get questions from collaborators about how to 
continue the progress that we have been able to make in these 
forests. And for mills, in particular, as you know, three years 
is just not a lot of time or certainty.
    So I wanted to ask you, do you support an extension of 
CFLRP or maybe a second round of authorization of projects and 
how can communities that have successfully implemented these 
projects make sure that the work continues after the end of the 
authorized collaborative project?
    Mr. Tidwell. Well Senator, in our '17 budget request we 
continue the funding for the 23 projects we have ongoing. And 
then also for out here we want to expand that to be able to 
expand the program, both financially but also to be able to add 
additional projects.
    We're to that point where we also need to be thinking about 
how to extend this beyond the original ten years. And so it's 
something that will take legislative action to be able to add 
additional projects, expand the funding that's available, but 
also to be able to extend this. And I look forward to working 
with the Committee to find ways for us to do that.
    Senator Heinrich. I look forward to working with you, 
Chief, to make sure we do extend that program and working with 
my colleagues. As I said, this is a program that is effectively 
thinning our forests, doing it right and with enormous 
community support, and we need to use those tools that are 
working.
    On an issue a little more geographically specific to New 
Mexico, in Western New Mexico, the Zuni Mountains Trails 
Partnership has been working now for many, many years to build 
out a mountain bike and other trail system in the Cibola 
National Forest, outside of Gallup. After several years of 
delays, we were expecting a final environmental assessment (EA) 
on this project last December but it was further delayed until 
this spring.
    Recreation is one of the growing sectors in this part of 
the state, particularly in this forest. The counties and other 
partners have committed to working to contribute funding to 
actually build trails, so we just need the Forest Service to 
get a final decision in place so that this can move forward. 
Can you commit to me today that we are going to see that final 
EA next month as was expected?
    Mr. Tidwell. Well Senator, it's my understanding we'll get 
it done this year. I'll have to get back to you as to just how 
soon, but I'm not sure we'll have it done next month. But we'll 
get back to you with a date. But I'm confident, from what I've 
been told, that we'll get it done this year.
    Senator Heinrich. The timeline on this has slipped and 
slipped and slipped. And you know, it is an example of where 
you have counties, you have businesses, you have the local 
forest, all working together on something that has the 
potential to really build a lot of trust and be an example, a 
successful example.
    It is really quite frustrating when these timelines slip 
without the facts on the ground changing. This year is a little 
disappointing because this is not the first time. I have heard 
this timeline slip multiple times now, and it is certainly 
frustrating for the local communities.
    We will follow up with you on that, but I would certainly 
hope that this would finally be done next month. I am aware of 
no reason it should not be done next month. No new information, 
no major changes in direction. So I look forward to following 
up with you and getting more specifics. I hope that this can 
happen a little sooner than that.
    Mr. Tidwell. I do too.
    Senator Heinrich. One last thing.
    There have been some ongoing efforts to address the 
permitting issue. That is something I have got a lot of 
experience with as a former outfitter guide myself. That was 
covered by our Ranking Member.
    Can you talk, just a little bit, about your efforts there 
because I think this is incredibly important to streamline this 
process and make it easier to get our constituents out in these 
forests whether they are doing that with an outfitter guide or 
a YMCA or a non-profit.
    Mr. Tidwell. We have been going through our process that we 
currently use to authorize outfitters and guides to be able to 
look at how we can do a better job to streamline that, make it 
a lot easier on our outfitters and guides.
    In addition to that we're also looking at how we can change 
our current policies so to allow those non-commercial groups to 
be able to go out without a permit. It's one of the things that 
we're working on in conjunction with the Department of the 
Interior to be able to make it a lot easier for the non-
commercial groups, the church groups, the city groups, the Ys, 
et cetera, and to be able to facilitate that to encourage more 
people to get out. So I'm really excited about the progress 
that we're making, and we're going to start implementing that 
this year.
    Senator Heinrich. I am very glad to hear that.
    Thank you, Madam Chair.
    The Chairman. Senator Capito.
    Senator Capito. Thank you, Madam Chair, and welcome, Chief 
Tidwell.
    I have said before that the construction and maintenance of 
adequate pipeline, we were talking about, Senator Heinrich was 
talking about pipeline. I am talking about a different pipeline 
capacity.
    In the State of West Virginia we have got this shale gas 
boom in the Marcellus and Utica area we want to maximize the 
obvious potential there. But I want to ask you about the Forest 
Service involvement in the Federal Energy Regulatory Commission 
(FERC) process.
    As you know the Forest Service is the coordinating agency 
but thanks to Chairman Murkowski and the base techs, the energy 
bill includes my provision on streamlining the natural gas 
permitting which would designate FERC as the lead agency to 
make, hopefully, the process move more quickly and more 
smoothly. Currently I do not think the process is moving as it 
should. I am hearing that there are excessive delays in the 
process and that the Forest Service is part of the problem.
    Some of the problems are getting permission to survey to 
get on the ground data to find a suitable route, getting the 
Forest Service staff to review the data and then provide 
feedback in a reasonable amount of time, and then to determine 
if an amendment is needed to the Land Management and Resource 
Plan. These are just some of the major areas. My question to 
you is does the Forest Service have adequate resources to 
complete its part of the process in a timely manner? If not, 
what does the Forest Service need?
    Mr. Tidwell. We have adequate resources. If we had a larger 
staff, similar to what we had, you know, ten years ago, we'd be 
able to be more responsive. We'd be able to work a little bit 
faster.
    But when it comes to a pipeline, the issues come from the 
public. The public's concern about the placement, the 
maintenance of pipelines. They want to be assured that it's 
going to be constructed in a way that doesn't cause unnecessary 
impacts to resources and that it is also constructed in a way 
that it is safe.
    So we work with the companies. And ideally if the companies 
would come in and we have the upfront discussions about where 
they propose to put that pipeline. And so we can share the 
information that we have about the geology, et cetera, so that 
we can quickly eliminate certain areas that are going to be 
potentially problematic, certain areas that are very 
environmentally sensitive and to be able to route the pipeline 
around those.
    That's how the process works, and we're making good 
progress. Ideally I wish that we could just, at the very start, 
come together and share all that information. And that's one of 
the things that we're trying to do a better job. So that when 
we hear about a proposal is to quickly sit down with a 
proponent and to be able to share our information and to be 
able to find that, the right route, for the pipeline. So we can 
quickly go through the analysis and be able to make the 
decision so that they, working with FERC, so they can go ahead.
    Senator Capito. Right.
    I do not disagree with anything that you have said here. I 
think that you have said quickly three times and I think that 
is the basis of my question is the timeliness of the decision. 
It is not disputing that there are problem areas or there are 
sensitive areas that you, as foresters, know and precisely 
would enumerate to the companies and to the general public. 
That is not the dispute.
    I think it is just trying to streamline the process. These 
are difficult, difficult issues in certain areas, and that is 
understandable. I would just ask you if maybe there is a way to 
make the process actually move quickly within in a timeframe 
that works? I tried to get timelines in there but I could not 
quite get them all the way into the bill.
    My second question is, as you know, two-thirds of the 
nation's forests are in state and private forests. The 
Stewardship Program is providing assistance to our state 
foresters, and 90 percent of those plans are successfully 
implemented.
    As a byproduct of those plans, forests that are owned by 
individuals and states provide almost 50 percent of the 
nation's wood supply. My question is why is the Administration 
proposing to increase agency fuel management and forest 
management budgets for Federal lands and yet decreasing the 
funding in the Stewardship Program?
    Mr. Tidwell. Well Senator, we're not decreasing that 
funding. We have moved some of the funding that's been in that 
account into what we call our landscape scale restoration 
account which allow the state foresters to be able to use those 
funds for forest health, for stewardship, for urban and 
community forestry. And they can have those funds together. So 
they can look at larger scale projects and not be limited to 
just looking at one piece of the problem there.
    So actually, feedback we're getting from our state 
foresters when we started this program last year is that they 
liked it. Yeah, they have to compete for it, but the ones that 
are quick to be able to see how they compete, especially the 
work with their neighbors, they're able to compete well for 
these funds and actually get more work done.
    So our overall funding stayed the same, we just are 
proposing to add additional funding then to the landscape scale 
restoration account.
    Senator Capito. So the LSR, the Landscape Scale 
Restoration, is competitively built? There is no minimum amount 
that each state forester would get or anything of that nature?
    I am over my time.
    Mr. Tidwell. They compete for that. They compete for that.
    Senator Capito. Alright, thank you.
    The Chairman. Thank you, Senator Capito.
    Senator Wyden.
    Senator Wyden. Thank you, Madam Chair.
    Chief, this effort to end fire borrowing seems like the 
longest running battle since the Trojan War. I mean, we have 
been at this since before I was Chair of this Committee. 
Shorthand, this is about raiding the prevention fund in order 
to fight fire.
    Now I was very pleased that our Chair, Senator Murkowski, 
has talked about this. Senator Cantwell talked about it. I 
think everybody in this room knows getting to yes on forestry 
policy is a really heavy lift.
    It is a real challenge and you have got to have a 
bipartisan approach. I think by way of trying to get this going 
this year, Chief, how important is it to you to have the 
bipartisan leadership of this Committee get with the bipartisan 
leadership in the House, to start working with all of you? So 
we are going through the regular order. We are using the 
Committees, the bipartisan leadership here, bipartisan 
leadership in the House, but we're going to get out of the 
gates. We are now at, I think, 20 bipartisan Senate co-
sponsors, 145 bipartisan members of the House, 260 groups, and 
I just want to find a way, working with my colleagues, with the 
bipartisan leadership of both bodies, to get this going.
    How important is it to you that that start quickly?
    Mr. Tidwell. You know, Senator, it's essential. And it's 
not just for me. This is essential for the American public. 
Almost every question that I get asked, and they're all very 
good questions, I would have a different answer if we would 
have been able to fix this a few years ago.
    When I think about the additional funding we've had to keep 
putting into this ten-year average and I think about what could 
we do with another $237 million to be able to address the 
recreation needs, the roads' needs, to be proactive with forest 
management, to address more hazardous fuels. I understand how 
difficult this is, but it's essential we find a solution.
    When I asked our folks last year, I said, what happens if 
we don't? If this keeps going in 2025, 67 percent of our budget 
will be for fire. Last year when I was up here we were talking 
50 percent. In FY16, it was actually 56 percent.
    I--there's got to be a solution, and I really appreciate 
all the hard work that's gone into it. And I understand it's 
difficult because if it was easy it would have been done a 
long, long time ago. But it's essential that we find a way, you 
know. And we are committed to work with the Senate. We'll work 
with the House, to be able to find a solution.
    Your bill, definitely, is one of those solutions. There's 
other good ideas out there too, and we're committed to be able 
to work with that to find something that's actually durable.
    You know, you passed the FLAME Act a few years ago. I was 
up here applauding that. It looked good. It didn't work for a 
lot of good reasons.
    So I appreciate the Ranking Member's, excuse me, the 
Chair's comment about this needs to be durable. We've been at 
it for a long time, so let's find a way to be able to do it so 
that it isn't something we revisit in a couple of years.
    Senator Wyden. Well I appreciate that answer, and you 
clearly indicated that you are open to a variety of approaches.
    As the Chair noted and something that I have long agreed 
with, we have got to have active management. There is no 
question about that.
    We also have to find a way to get this done because this 
makes a mockery out of the Forest Service budget which is 
probably a little bit more colorful way to say what you have 
been saying and other people in the Forest Service have been 
saying for years.
    So we are going to do everything we can, through the 
leadership on both sides of the Capitol, to work with you and 
to get this done. I know Senator Crapo, who has been with me on 
this, feels the same way.
    One last point to use up the rest of my time. I want to 
thank you for the good work that your folks have been doing in 
Portland. They have done some exceptional work that, as you 
know, involves tree moss, and we have had some really serious 
public health questions.
    I live in Southeast Portland. It is not directly in my 
neighborhood, but it is not that far away, and people are 
really concerned about the risk of these toxic metals that 
relate to industrial work done in the community. It looks like 
there are some big gaps in EPA clean air laws. They look to me 
like gaps the size of a lunar crater. But none of it really 
would have come to light without the ground breaking research 
that your people have done, so I am almost out of time but are 
you going to need additional funds in order to continue this 
research into the future?
    Mr. Tidwell. Well Senator, it's just another example of how 
important our research and development branch is to be able to 
develop the science, to do the studies, to be able to not only 
identify problems but more important, to find those solutions. 
And it's one of the things that I think it's essential that we 
find ways to be able to maintain a research and development 
budget.
    When I look at where we were back in the mid-80's, and we 
had like over 1,100 scientists and we have much, over less than 
half of that today. Our scientists are doing a better job to be 
working with universities, et cetera, but it just shows you 
really the power of the benefit of science.
    So this is one example to identify a problem. But I can 
tell you, it's also, it leads us to finding a solution. To be 
able to use vegetation, to be able to use our forests to 
provide that clean air, that clean water. That is the solutions 
that come out of science.
    Senator Wyden. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Wyden. Know that there is 
a great deal of commitment for that bipartisan, bicameral 
effort to find the enduring and durable solution.
    Senator Flake.
    Senator Flake. Thank you.
    Thank you, Chief Tidwell.
    The question was asked earlier, are stewardship contracts 
and other activities we have undergone making a difference? I 
can tell you in Arizona, as you have seen and I have seen, they 
have. They have made a difference. We have towns that are still 
there that would not be otherwise, but we obviously have a lot 
of forest to treat. I appreciate you coming to my office in 
January and detailing some of the plans that you have to 
expedite that. The new 4FRI Chief Executive position, that is 
important. A budget increase for Region 3 and more acreage 
designated to existing industry--that is all important.
    Can you talk a little more about--4FRI is the biggest of 
its kind in terms of projects--a Four Forest Restoration 
Initiative? What plans do we have, with the existing contracts 
that we have there and those on the outside, to expedite this 
forest restoration there?
    Mr. Tidwell. Well Senator, as you mentioned, you know, 4FRI 
was the first of its kind, to be able to do the analysis of a 
million acres with one document. So now we have 540,000 acres 
that's NEPA-ready for work to be able, under the 4FRI projects.
    So we continue to work with the contractor to be able to 
expand their production. They did have their best month on 
record in December, and they indicate they'll be able to 
continue to expand. That's good.
    But in addition to that we also are moving forward to 
provide additional acres that need to be treated for other 
operators in that state so that we can build on, not only the 
work that's being done by the Good Earth contractor, but also 
to be able to get additional work going. And at the same time 
we've got the rest of your state to worry about.
    The 4FRI was a big project, but it was just a piece of it. 
And so that's the other challenge that we have.
    When we look at some of the additional hazardous fuels 
funding and some changes we've made in our management and cost 
reductions that we've made to be able to dedicate some 
additional funds. But it's going to take multiple operators to 
be able to address the work that needs to be done in your 
state.
    So the things, the changes, that we're making to be able to 
move faster, to be able to use the Farm bill authorities on 
other projects and also be working with the state, potentially 
with Good Neighbor Authority, to be able to expand our current 
work.
    Senator Flake. Thank you.
    Along those lines of allocation and budget priorities, the 
Eastern Arizona Counties Organization has discussed with you a 
detailed list, possible next steps, in terms of forest 
restoration on the east side. How do you plan to use the 
additional money for Region 3 in that regard? Will that be 
dedicating some to the priorities that they have outlined?
    Mr. Tidwell. Yes. They will also be, look at using some 
enterprise teams to get some of the NEPA done. It's also to be 
able to bring in additional people to be able to put the 
project package together.
    And then also to be able to look at where are some areas 
that we can quickly get into so that we can continue to provide 
the wood that the east side operators need. And at the same 
time, to also move forward on some larger scale projects so 
that they too, can see multiple years of work in front of them 
versus what we'll be able to do in '16 and then have a question 
of well, what's happening in '17?
    It's just another need for these long-term stewardship 
contracts. If we could get a few of those going on the east 
side, then I think we, you and I, would be having a different 
discussion.
    Senator Flake. Thanks.
    As you know Arizona has a long history of planning for 
water needs. We have the Colorado River that supplies a good 
percentage of the water that we utilize, but one of the most 
important sources is the runoff, the watershed that we have in 
our northern forests.
    We asked the Governor and others to put forward some of the 
priorities for the state, and one is to make sure that we treat 
our watershed and are able to realize all the benefits that we 
can from that, all the water, treating Arizona's overly dense 
forest is a big part of that. As you know a healthy forest 
yields up to 25 percent more water than an unhealthy forest.
    Given the Forest Service's experience with NEPA and 
narrowly tailored NEPA solutions and streamlining authorities, 
how can we utilize that? I mean, we have H.R. 2657, the 
Resilient Federal Forests Act, which is intended to help in 
terms of streamlining NEPA. How important is that to you?
    Mr. Tidwell. Well what's important to me is that the 
authorities we have are authorities that are supported across 
the board so we can actually, successfully, implement those.
    I look at the authorities that came out of the Farm bill, 
the work that we're doing with insect and disease, the work 
we're doing with Good Neighbor Authority, that is allowing us 
to be able to expand our work because there's support. Those 
authorities were put together in a way that provides some 
assurances to those that had some questions and concerns about 
forest management but at the same time allowed us to be able to 
reduce some of the paperwork, some of the documentation of 
analysis. So they were very effective.
    As we look forward for any authorities, for me it has to be 
something that provides that level of trust so that we can 
actually use it, because if you don't have that it just creates 
more controversy. What you'll find is that our employees will 
shy away from those verses to use different authorities.
    So that, I think, is our challenge as we go forward. And 
once again, I think, that with the work from the 2014 Farm 
bill, insect and disease designations, those authorities have 
been, they're proving to be, very helpful and we're 
implementing those now.
    Senator Flake. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you.
    Senator Warren.
    Senator Warren. Thank you, Madam Chair.
    In recent years the Forest Service budget has been 
dominated by one thing, the cost of fighting wildfires. Two 
decades ago the Forest Service spent about 17 percent of its 
budget on fighting fires. This year firefighting will eat up 
nearly half of the agency's budget plus an additional $800 
million that has been separately proposed for disaster funding.
    Now in large part the costs have increased because the 
number and intensity of fires has increased. Fire season now 
lasts about two and a half months longer than it did in 1970. 
Last year was one of the worst in decades with more than 10 
million acres burning across this country.
    The conditions that produce more wildfires are well known. 
Chief Tidwell, human activities have been driving dramatic 
changes in our climate. Can you describe the impact that 
climate change has had on major wildfires?
    Mr. Tidwell. Well Senator, the first one is the length of 
the fire season. And it's not just because the fire season is 
longer. When you have a fire season that's another two and a 
half months longer, it first of all, it allows those fuels to 
dry out that much more because they have another 60 days under 
the sun. And so when we, we not only see fires occurring 
earlier in the year, but then at toward the end of the fire 
season, our fuel moistures are much lower, so the fires burn at 
a higher intensity, cause more damage to watershed and are 
much, much more difficult to suppress. The other things we're 
seeing is just hotter and drier weather. So you've got drier 
fuels, a longer fire season and then you have this hotter, 
drier weather.
    And then the extensive droughts that we're having. We've 
always had droughts in this country, but what we're seeing 
today that the droughts are lasting longer and they're much 
more intense. And so they're causing even more problems. And we 
saw that through the West and we're getting some favorable 
moisture this year but it will take a lot more than one year to 
ever--forests recover from those droughts. So those are the 
things that are contributing.
    There's one other key factor, and that is as we have this 
warmer environment with less of the really harsh, cold winters, 
especially early in the year, the insects and diseases are 
spreading. Our invasives are spreading.
    Emerald Ash Borer is a good example here in the East. It's 
been around here for a while. It stayed pretty much in a few 
states and then as we started to really see the change in the 
climate, it's now been able to make it all the way to Canada.
    That's the other problem that we're dealing with that the 
environmental changes, the climate changes. We're seeing 
they're also creating a very favorable environment for 
invasives.
    Senator Warren. This is very, very troubling because the 
pace of climate change is now accelerating.
    Chief Tidwell, if we cannot make significant progress to 
address climate change, what can we expect about the cost of 
fires in the future?
    Mr. Tidwell. Well the cost of fires are definitely going to 
increase. But what's more problematic is if we can't get out 
and make more changes on the landscape to reduce the fuels, to 
be able to do a better job to build defensible space, we're 
going to continue to lose thousands of homes.
    Last year we talked about the number of acres burned. We 
lost 4,500 homes. On average for the last ten years we lose 
3,000 homes every year in addition to that the lives of our 
firefighters and the lives of our public.
    So we have the opportunity here to be proactive, be able to 
address, you know, changing the landscape so that when the 
fires do occur they're less severe, they're easier to control, 
it's safer for our firefighters, safer for our public. Those 
are the things that we have to work on. And our scientists do 
not see any foreseeable change in the climatic situations we're 
dealing with for the foreseeable future.
    Senator Warren. Thank you.
    You pull it all together there when you talk about the 
acres that we lose, we talk about the homes we lose and we talk 
about the lives that we lose. Obviously we need a real solution 
to fight wildfires, a solution that ensures sufficient funding, 
that keeps environmental protections in place and that provides 
certainty for all of the other Forest Service programs.
    I appreciate the hard work that others on this Committee 
have done to try to come to that solution, but rising wildfire 
costs are just another example of the price we pay if we fail 
to take decisive action on climate change. Unless we take this 
problem seriously, unless we take meaningful steps to end 
reliance on fossil fuels and cut back on greenhouse gas 
emissions, these fires will get worse, we will spend more 
money, we will jeopardize more lives, we will damage more 
critical ecosystems and communities that depend on our nation's 
forests.
    Thank you, Madam Chair.
    The Chairman. Senator Daines.
    Senator Daines. Thank you, Madam Chair.
    Chief Tidwell, good to see you here again today. Thank you 
for your testimony. I share your commitment, as well as I know 
many members on this Committee, to solving the wildfire funding 
challenge and increasing active management of our national 
forests.
    I know across many of our national forests, certainly in my 
home State of Montana, habitual litigation from fringe groups, 
who do not represent the majority of the people in Montana, 
have been one of the key barriers to moving forward with active 
management of our forests.
    I recently received updated information from your Region 1 
staff concerning litigation in Montana. I was told there are 21 
active timber lawsuits going on in my state. That to me is 
astonishing, and it is unacceptable.
    I had some students from Libby, Montana, in my office 
recently. They are called the Libby Loggers because of a 
vibrant timber industry up in Northwest Montana. The only folks 
winning today are the lawyers. And I said perhaps they need to 
change the mascot from the Libby Loggers to the Libby Lawyers. 
The lawyers are winning, the loggers are losing, the 
communities are losing, and the environment is losing. They are 
not actively managing a forest.
    I appreciate the comments on the insects and infestations, 
certainly, of the pine beetle and what that is doing. We cannot 
even harvest dead trees oftentimes because we are getting 
challenged by these fringe groups.
    In fact, I just saw a study which showed the Forest Service 
completes more time-consuming environmental impact statements 
than any other Federal agency. I just looked at the report here 
this morning. The Forest Service spends $365 million a year 
complying with Federal laws and regulations.
    My question, Chief Tidwell, as we look at the solution to 
go forward here, as we need to certainly, and I support change 
in the way that wildfires are funded, as well as ensuring that 
we move toward active forest management. I think a big part or 
a big barrier of that is litigation. If Congress provided 
litigation relief and regulatory relief in a way that maintains 
the public trust, is it fair to say the Forest Service would be 
able to get a lot more work accomplished on the ground and 
perhaps in a shorter timeframe?
    Mr. Tidwell. There's definitely projects that are 
litigated. And you know, in the past we definitely had much 
more litigation than we're seeing today. We've also, you know, 
our staff and attorneys are doing a good job to work through 
that backlog. What's even more important is the trend. So like 
last year in Region 10 or excuse me, Region 1, we had seven 
lawsuits and for--and three of those were for our vegetation 
management projects. And we had no preliminary injunctions to 
have to deal with.
    So it's a combination of our folks doing everything they 
need to to be able to work with people and to be able to move 
forward with that. But they have significantly reduced the 
amount of litigation when it comes to forest management and our 
vegetation projects.
    Now the litigation in a lot of the other issues that we're 
dealing with, it's continuing to, actually, it's stayed the 
same or increased.
    So that the solution, as I look at this, and I've spent a 
lot of time dealing with it over my career, is that if we can 
find ways for folks to understand what we're trying to get done 
and to be able to build that trust because so much of the, from 
my view, a lot of the litigation comes from the point that 
people believe that we're trying to do something else verses 
take care of the land.
    Senator Daines. To that point, I have been a supporter of 
the collaborative process, and it is working. It is working 
back home in Montana. However, of the 21 projects under 
litigation, 16 of the 21 were collaboratives where these folks 
show up, who are not at the table working together across 
various stakeholders, NGOs, the timber industry, the community, 
county commissioners, and then these fringe groups show up and 
litigate and challenge these harvests.
    I think we all agree collaborations should be encouraged, 
but I strongly believe more needs to be done to protect the 
collaboratives from this handful of fringe obstructionists who 
repeatedly sue and upend the hard work and frankly, 
demoralizing folks who are trying to find a solution as we 
watch the forest burn in the summertime. We see the declining 
revenues that support our schools and our teachers and just a 
vibrant economy. I just ask that we continue to work together 
to find solutions to incentivize collaborations, to find ways 
to de-incentivize these fringe groups that are litigating a lot 
of these projects.
    Mr. Tidwell. Well Senator, I appreciate your support for 
our collaborative efforts and they are making a difference and 
yes, it's extremely frustrating when people have worked 
together, come to agreement on what work needs to occur and 
then you have somebody come in and file a lawsuit. It is 
frustrating.
    I do think the ways to be able to incentivize 
collaboration, and I appreciate the work from Congress over the 
last two years. They recognize that. We see things where they 
want to put it into statute. I really appreciate that level of 
support, because I do think it is making a difference and it's 
really the answer.
    I think that as we build more and more support and we build 
stronger collaboratives, I do think it will also help more 
people to understand really what we're after and to be able to 
build that trust. Because once you have that trust, that's what 
carries these collaboratives and that's what allows us to be 
able to get the work done.
    When I look at the work that's going on in your state over 
the last few years, our employees are doing such an outstanding 
job working with the communities to be able to expand the work 
every year, be able to hit their targets, even with litigation 
that they're still dealing with. In your state it's one of the 
places we probably have as much as anyplace. But they are doing 
an outstanding job and appreciate, once again, your support for 
our collaborative efforts.
    Senator Daines. Thank you, Chief Tidwell.
    The Chairman. Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    Thank you very much, Chief, for making the clear connection 
between climate change and the continuing challenges of 
fighting forest fires. I also agree with Senator Daines that 
collaboration is what we want to pursue.
    Every state has forest resources and challenges that 
requires us to work very closely with the Forest Service, and 
then we depend on the expertise and what the Forest Service 
brings to the table. That is why so many of the questions from 
the Committee are very specific to what is going on in our 
states and your activities in those states.
    So in that regard I did want to take a moment to thank you 
for your commitment to protecting Hawaii's precious landscapes 
in the President's 2017 budget. This includes prioritizing 
Hawaii's island forests at risk proposal for the Land and Water 
Conservation Fund as well as inclusion of both the O'oma and 
Helemano wilderness area in Hawaii through the Forest Legacy 
Program. As you know, our natural resources in Hawaii are 
facing numerous external threats, and your support in 
conserving these landscapes is very much appreciated.
    I would like to, of course, invite you to visit Hawaii 
sometime to see all of the challenges and opportunities and the 
activities that you are very much engaged in in Hawaii. There 
is nothing like actually visiting a place to gain a fuller, I 
think, appreciation of what is going on.
    I wanted to turn to one of the biggest emergencies that 
Hawaii's native forests are facing right now which is the Rapid 
Ohia Death, a fungal pathogen, in thousands of our native Ohia 
trees which have died. Ohia is significant because this tree 
makes up 80 percent of our native forests and is ecologically 
and culturally the most important native plant in Hawaii. Of 
course, our Ohia forests have a lot to do with our watersheds.
    So one of the ground personnel from the Federal and state 
stakeholders, including the USFS personnel from the Institute 
of Pacific Islands Forestry in Region 5, with state and private 
grants are trying to answer several critical questions about 
this disease including transmission and resistance. We still 
need the resources to do the proper investigations and 
research.
    What can the Forest Service recommend to Hawaii as it 
relates to Rapid Ohia Death based on lessons learned and best 
practices when you have been confronted with other tree 
diseases in other states? And would an incident command 
structure be helpful to identify and direct resources to help 
Hawaii and are there creative ways that we can engage expertise 
across the Forest Service on this topic and what other 
resources may be available for assistance?
    Mr. Tidwell. Well Senator, we are working very closely with 
the Agricultural Resource Service and also the University of 
Hawaii to be able to bring all of our resources together to be 
able to, first of all, understand how this is being transmitted 
and to be able, then, to look at some ways to be able to reduce 
the spread of this. We are also doing work to look at genetic 
resistance to be able to find which trees are able to fight off 
this fungus.
    This fungus has been in Hawaii for a while, but it has just 
recently gone into the trees so we need to understand what is 
causing that to occur. It may be just another one of the 
indicators is we see the changing climate that we're seeing, 
you know, things, the fungus has been in our environment for 
many years all of it's starting to start creating a problem. 
We're seeing the same thing with bats, with white nose 
syndrome. So what we're looking at is to be able to bring all 
the resources together to quickly understand what's going on 
and be able to figure out how we can stop this.
    The other thing we need to probably look at is how to stop 
the spread. So if there's some things that we can do to be able 
to get out in front of this.
    I also know that there are some trials that are going on 
with some fungicides that may also prove effective. The problem 
with that is that it's such a large area and that may be very 
helpful in a specific area for a few trees around a person's 
home, et cetera, but to be able to stop this we're going to 
have to, I think, go beyond finding that solution.
    So those are the things we're continuing to work on, and 
there's urgency to be able to quickly get out in front of this. 
But at the same time it's just another example of why our 
research and development program is so important so that we do 
have the scientists, we have the capacity, to be able to 
address these emerging issues.
    Senator Hirono. Do you have enough money in your Fiscal 
Year '17 budget proposal to do the kinds of things that you are 
doing because it is not just happening in Hawaii. These kinds 
of unusual occurrences are happening across the country, I 
would imagine, so you need to have a robust capacity for 
research, tests, what have you. Is there enough money in the 
budget? Well, there is never enough.
    Mr. Tidwell. So I'm pleased that we're able to ask for the 
amount of funding we do have. Yes. And then once again, until 
we fix this wildfire suppression funding situation we're not 
going to be able to be in a position to be able to ask.
    So I do feel that we have an adequate level in our research 
and development. But it's one of the things we need to be aware 
of though, as there's going to be more and more invasives, more 
and more issues. Research and development is definitely an area 
that we need to increase our investment in.
    Senator Hirono. Thank you, and I thank the Chairwoman's 
leadership in the wildfire issue.
    The Chairman. I look forward to working with you.
    We will next turn to Senator Cassidy and then Senator Lee.
    Senator Cassidy. Hey, Chief.
    Last September the EPA published an interim recommendation 
for environmental standards as well as ecolabels for use in 
Federal procurement. The recommendation for lumber defines, I 
think, FSC. You will know that term, but just to define it. The 
Forest Stewardship Council (FSC) certified and by including 
that but not including it, therefore excludes, if you will, the 
standard forestry initiative, SFI and the ATFS, the American 
Tree Farm System.
    Now first in Louisiana about 85 percent of all of our 
lumber is either SFI or ATFS. I am also told that from the 
National Forest Service land there are about 42,000 jobs 
attributed to the forest products from within NFS lands and 
that the Forest Service does not allow their harvested wood to 
be subjected to a third party standard. So not only are 85 
percent of my foresters excluded but the entirety of the 
National Forest Service is excluded by these EPA standards. I 
am also told that both the SFI and the ATFS have the same sort 
of standards as the FSC, all these initials, I am sorry, but 
that they are just not included.
    Thoughts on that? Why should we allow the National Forest 
Service products to be excluded based on their own rules and 
EPA rules?
    Mr. Tidwell. Well Senator, I'm going to have to look into 
this. But there's no question, we support, you know, the SFI, 
the tree farm, the FSC, you know, certifications. It's 
something that's in your state the majority of the private land 
is certified, and so we've always been supportive of that, you 
know. So this is something I'm going to look into but it raises 
the question of potential problems, because when we think about 
clean air and we think about clean water we need to be thinking 
about healthy forests and maintaining our forests.
    So today, you know, our nation's forests, which is the 
majority of them are private land, as in your state, they 
sequester from about 12 to 14 percent of the CO2 that's emitted 
each year. If we lose those forests and if there isn't ways to 
be able to have viable markets for the wood, private landowners 
are going to develop their land for some other use.
    So it's essential that we make sure that we're, things that 
we're considering, it actually helps us to be able to maintain 
forests on the landscape. So this is an issue that I'll look 
into and I'll get back to you on it. But it is problematic when 
there's--when we're looking at things, especially when we're 
concerned about clean air and clean water. We've got to make 
sure that it allows us to be able to maintain our forests and 
part of that is to be able to have strong, economic markets for 
the wood. So it's essential that we have both, so I will look 
into this and get back to you.
    Senator Cassidy. It is interesting you just put a nice 
perspective, the degree to which the Federal Government passes 
regulations it makes it uneconomical for someone to have a 
forest.
    That forest would be put to its other economic uses and the 
Federal Government will actually be working against clean 
water, against having, if you will, a sump for CO2, if that is 
the priority and clean air. So the Federal regulation that 
restricts the access of another Federal agency to these 
products actually works against these stated goals of the 
agency. Is that a fair way to put it?
    Mr. Tidwell. Well, it could. And once again I'm not 
familiar with, you know, this EPA regulation, so I'm going to 
have to get back to you on that.
    But, you know, my point was that we need to be very careful 
that we need to understand the benefit of our forests. And yes, 
we have our public land forests that are going to stay 
forested. But the majority of our forests in this country are 
private, and if we lose those private forested lands we lose 
the potential to be able to not only store carbon but provide 
that clean water, the wildlife habitat, the recreational 
settings.
    So it's essential that we consider the impacts of any of 
our regulations so that we want to be able to do is to be able 
to promote that. And then at the same time, to be able to 
answer the question that yes, it's being managed in a 
sustainable way because some of our markets in Europe, there's 
people that are questioning our forest management in this 
country because of the standards that they have in some of the 
European countries require that their wood products are coming 
from sustainable, managed forests. So it's essential we'll be 
able to do that but at the same time, be able to do it in a way 
that we can maintain these forests.
    It's--if I think about, if for no other reason, just the 
amount of carbon that's being stored. If we lose that sink, you 
know, we're going to have to find other ways to be able to deal 
with it. It's just another one of the benefits of forests that 
I'm not sure everyone recognizes.
    Senator Cassidy. We will then pose that as a question for 
the record, and we look forward to your reply after you have 
had a chance to review it.
    Thank you.
    The Chairman. Senator Lee.
    Senator Lee. Thank you, Madam Chair.
    Thank you for being here with us today.
    Agriculture plays a pretty significant role in my home 
State of Utah. Our state's economy is quite dependent on 
agriculture, especially in many of the state's rural 
communities.
    Now because of the fact that two-thirds of Utah's land is 
federally controlled, thousands of Utah ranchers are dependent 
on Federal land managers and the policies they set for their 
own livelihood, their own ability to feed their families and 
keep their farms and ranches operating.
    Unfortunately for these ranchers and their families, 
Federal policies have become increasingly hostile toward 
livestock grazing. In fact, since the 1950s Federal land 
managers have cut livestock grazing rights by 74 percent. This 
is quite significant cutting those by 74 percent. This has 
created tremendous uncertainty for ranching families in Utah 
and undercut rural economy throughout my state.
    Can you tell me, Mr. Tidwell, why have grazing permits 
declined so dramatically since the 1950s?
    Mr. Tidwell. It would be a combination of things but part 
of it would be the impact that was occurring from the grazing. 
It's also the change with the multiple use and that the 
public's interest in these lands for a variety of uses whether 
it's for recreation, whether it's for wildlife, whether it's 
for scenery. And so when we look at how to manage these lands 
we want--we're going to continue to graze these lands, and we 
can do it in a way so that we can maintain the ecosystem, 
maintain the riparian areas. We have thousands of places where 
we can do this.
    And so has there been reductions over the last 60, 70 
years? Sure there has. But you also have to remember that the 
reason the forest, the national forests, exist in Utah is that 
the community's petitioned Congress to have them reserved from 
the public domain because of the lack of management that was 
occurring way back in the late 1800s.
    And so, over time, yes, there's been reductions. But it's 
been to be able to address the public's needs to provide, not 
only multiple use, but also to have sustainable grazing. And 
when we do that then the permittees are in a place where they 
have that certainty.
    The other problem that we deal with is that we go through 
droughty periods of time in Utah, like everyplace else. And 
when we go through those droughty periods of time there's just 
less forage and there's less capacity on the landscape. Now the 
ideal situation would be the permittees would be able to reduce 
their numbers during that time, and then when we do get the 
more favorable precip years they could actually expand their 
operations. That's the place we need to be, but it's very 
difficult for many of our ranchers to have that flexibility.
    Senator Lee. Yes, and I understand that there are a lot of 
considerations there, and I would not dispute that. I do not 
think any Utah ranchers would dispute the fact that it is 
necessary to restore rangelands to allow rangelands a chance to 
catch up so that our grazing permitting processes remain 
sustainable. But what I am hearing from a number of ranchers in 
Utah is that even after rangeland has been restored, after 
being allowed to rest for a while, it is still not opening up. 
That even once range conditions have improved substantially the 
grazing rights are not being restored. So why is that? Can you 
tell me why that is not happening? Is that the case, first of 
all? And to the extent it is the case, how do you justify that?
    Mr. Tidwell. Well, each allotment has a management plan 
that basically lays out that the rotation of livestock, the, 
you know, the duration and the intensity of grazing. Permittees 
follow that. And so if there's available forage, it's 
available. A lot of it just depends on water, and the more 
water distribution that we can have then you can spread the 
livestock out. It also depends on the operations.
    So it's been my experience that we work with the permittees 
and we put a good plan together and it's their plan. They run 
the livestock. We set, these are the conditions that the public 
wants and needs from the landscape.
    So, you know, you have that opportunity to use that for 
that forage. And so, there's a variety of things that factor 
into it. But if the forage is there, we're making use of it.
    Senator Lee. Okay, thank you, sir.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Lee.
    Senator Gardner.
    Senator Gardner. Thank you, Madam Chair, and thank you, 
Chief Tidwell, for being here today.
    First of all, when we were having our budget hearing last 
year for the appropriations cycle, we had a conversation about 
the Forest Service's work around water, water policies and the 
ski area water rule. I understand in late 2015 that the Forest 
Service arrived at a ski area water clause that addressed the 
concerns of the ski industry, partners of the Forest Service, 
concerns that I shared with them which resulted in a resolution 
palatable to both the Forest Service and the ski area partners. 
I just want to thank you for your work on that.
    I would like to briefly touch on the importance of healthy 
forest management practices. Coloradans who are living in and 
around Pike National Forest near Colorado Springs are closely 
watching an incident of species infestation of the Douglas-fir 
Tussock Moth. I understand from a stakeholder meeting with the 
Forest Service on Friday in the area in Colorado Springs that 
the Forest Service is not looking into the possibility of 
utilizing a categorical exclusion provision within the Farm 
bill to treat the affected areas.
    The Douglas-fir trees in that forest are incredibly 
beautiful and certainly a local economic driver. I was hoping 
to get your commitment to continue to work with my office and 
local stakeholders to come to a resolution that will treat the 
Tussock Moth on the infestation on public lands which will lead 
to a healthier forest and obviously greater prevention for 
wildfires in the area.
    Mr. Tidwell. Well Senator, you have our commitment to 
continue to work with the city and the county there to be able 
to address that and to make use of that Farm bill authority. 
It's another example about the benefits of those authorities 
that were put together in a way that there's strong trust to be 
able to use those. And so this is a perfect example of that.
    Senator Gardner. Thank you, Chief.
    Madam Ranking Member, I would like to submit to the record 
the Memorandum of Understanding among Colorado stakeholders for 
coordinated treatment of the Douglas-fir Tussock Moth on 
private--
    Senator Cantwell [presiding]. Without objection.
    Senator Gardner. Thank you.
    [The information referred to follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Gardner. Chief Tidwell, recently the Forest Service 
prepared a supplemental environmental impact statement on the 
Colorado roadless rule and reinstated the North Fork exemption 
to the rule. I would like to thank you for your work on this 
issue to date and look forward to the final record of decision. 
I think it is important that we recognize the value of coal 
mining in the North Fork Valley and to uphold the exception 
which is the result of years of negotiation and collaboration 
among the Forest Service, Colorado and stakeholders.
    Madam Ranking Member, I would like to submit two letters 
for the record on the Colorado roadless rule. One from Governor 
Hickenlooper and another letter I joined advocating for the 
exemption to be upheld in the Forest Service's analysis. If I 
could get those submitted to the record.
    Senator Cantwell. Without objection.
    Senator Gardner. Great. Thank you.
    [The information referred to follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Gardner. Recreation on Forest Service lands, as you 
know, is obviously a tremendous part of Colorado's economy, our 
country's economy. Senator Shaheen and I are working on 
legislation that would focus more on the recreational economy, 
the outdoor economy, to get a better understanding of its 
economic impact.
    Recent studies in Colorado show that the ski industry in 
the state generates about $4.8 billion annually. The vast 
majority of the 25 ski areas in Colorado are located, at least 
partially, on national forest land. In addition, I have read 
that the ski areas generate over $20 million in fees that go 
directly into the U.S. Treasury.
    My concern is centered on reporting that the Forest Service 
is finding it increasingly challenging to keep up with the 
growing recreational industry, including these ski areas. In 
fact, the most heavily used, popular forest in the country is 
White River National Forest generating nearly $18 million of 
the fees paid to the Treasury each year. But we have seen the 
White River National Forest staff steadily decline, the budget 
eroding over the past several years. So they are struggling to 
uphold their end of the partnership. In fact, since 2009 if you 
look at it, I think they have seen a 40 percent reduction in 
their budget, the White River National Forest, as they take on 
new projects, as they take on improvements, expansion of summer 
recreation that has been such a great success over the past 
several years.
    How do we address this, at the Forest Service level, this 
erosion of local capacity to serve recreation that is critical 
to Colorado and so many other communities?
    Mr. Tidwell. Well Senator, we face that problem everywhere, 
not just in your state.
    You know, the ski areas are great partners. They're often 
willing to actually help, you know, pay for additional analysis 
when they're looking at expanding and especially as we're now 
moving into the forest season resorts to make full use of these 
facilities.
    We're doing what we can to be able to be a good partner and 
to be able to be responsive, but there's a problem you 
mentioned, you know, with the staffing. It's just, it's 
something that's occurred because of the cost of fire 
suppression. And it occurred gradually over quite a few years, 
over ten plus years, to the point where, you know, we just have 
33 percent fewer employees outside of fire than what we did 
just a few years ago. And so, it's just another example.
    Now that being said, what we're looking at is to find a way 
so that we can actually be more efficient with our processes so 
we can actually be even more responsive. It's one of the things 
that we want to be able to sit down, especially with the ski 
areas, where they can bring capacity, you know, to help with 
the problem. But we still have our role.
    But if we can find ways to be able to, you know, package 
different proposals together, to be able to get the work done 
up front so that there's, you know, strong support, people, the 
public, understands what's being proposed. We'll continue to be 
able to do a better job but it probably isn't going to satisfy 
their needs, and we're just going to have to find a way to stop 
the erosion of our staff.
    Senator Gardner. So specifically, with the fire funding 
fix, how would that help on the staffing issue? How 
specifically could we make sure that that money then, that it 
is prevented from being drained away over here to go into 
staffing issues?
    Mr. Tidwell. Well the first thing, it would stop the 
transfers. So we wouldn't have to deal with that anymore. We 
wouldn't lose all that time and expense and funding. And then 
the second thing is that we'd be able to at least maintain our 
current staffing or ideally build that over time because it 
would provide flexibility, budget space within the constraints 
so that appropriators could, you know, add to our budget 
instead of constantly reducing it to be able to pay for fire.
    So you know, that's the first thing is to stop the erosion 
and then to be able to create the space so that we can be 
proactive, not only on forest management but also to be able to 
deal with recreation so that we can carry out our 
responsibilities to be a good partner with all of our 
recreation users and especially the ski areas.
    Senator Gardner. Chief Tidwell, keeping in mind the drought 
maps and snow pack levels, as you are looking into the spring 
and the summer, what areas of the country are you concerned 
about from a forest fire perspective?
    Mr. Tidwell. Well, you know, this year with our projections 
we're looking at having a less active year than we had last 
year. But we're also seeing areas where we're getting a very 
warm spring and we're seeing the snow, you know, come off the 
low ground, low areas. And so that's becoming a concern so that 
in our lower elevations we're now looking, it looks to me, that 
we may have an early fire season.
    Our higher country is going to be in much better shape than 
it was last year, at least out West, so we may not have those 
large fires in the high elevation. But come September it's 
going to dry out.
    One of the problems that we have is that when I'm asked to 
predict the fire season, you know, and our scientists can look 
at it. And one of the things they do, they predict the cost. So 
for FY16 our predictions right now is that we're 90 percent 
confident that the cost of this fire season is going to be 
between somewhere around $700 million and $1.72 billion. And 
that's today. And then we're talking about FY17 budget. So the 
idea that we can actually predict, I mean, we've got great 
scientists, but it is just so difficult. And so even for this 
year I'll be able to give you a good projection in May but 
probably not until May can I really answer your question.
    Senator Gardner. I understand. Thanks, Chief.
    Thank you.
    The Chairman [presiding]. Thank you, Senator Gardner.
    Chief Tidwell, let me go back again to the Tongass and the 
transition issue. I mentioned in my opening comments my concern 
that this transition only works if you have those that are able 
to stay in the business. We have had this conversation before, 
and I appreciate that the Forest Service has stuck with the Big 
Thorn sale. That is going to, hopefully, keep enough timber out 
there to keep things alive into next year.
    But I do remain concerned about the future. In 2015 you 
sold no old growth at all. So far this year in '16 you are 
planning to sell just 51 million board feet unless a revised 
Wrangell Island sale can be worked out. Looking out to 2017 and 
beyond, old growth sale planning is pretty much nonexistent 
with the focus entirely on preparing for young growth sales.
    So every year when we sit down in this public forum I raise 
the question to you, what do I say to people back home? What 
can I tell the folks at Viking about how the Forest Service 
intends to keep them and other mills alive? The industry needs 
old growth and a supply they can count on. It is needed to pay 
for investment. What do you say to the people who are working 
whether at Viking or at another mill? How do you encourage them 
to stay there? So what can you tell me that will be encouraging 
to the men and women in Southeast that continue to depend on a 
supply of timber from the Forest Service?
    Mr. Tidwell. You know Senator, I think our transition to 
young growth over time is the solution to be able to provide 
that certainty, to provide that bridge timber, to reach 
agreement that yes, there will be bridge timber made available.
    The Chairman. But what do we do in the short-term because--
    Mr. Tidwell. Well.
    The Chairman. You say over time, and I am saying okay, we 
can talk about it over time. But how do we keep them alive 
until then because the outline that I have given you is we have 
got timber that we can look to this year that keeps us alive 
through next. But how do you see their future after that?
    Mr. Tidwell. Well, we're continuing to move forward with 
our annual timber program while we're doing this, and so far in 
FY16 the target for the Tongass is 62 million board feet. And 
it's my understanding they're committed to get that done, 
that--
    The Chairman. Are you aware, Chief, in order to keep this 
transition alive, we have got to rely, not only on what is 
coming off of the Forest Service lands, but also off of non-
Federal lands? I understand Sealaska has told you as recently 
as just last week that they are going to have a difficult time 
continuing economic operations and that they are going to be 
seeking to supplement their timber supply with sales from the 
Tongass. They tell me that they are going to need to buy 20 
million board feet annually for perhaps 30 years from the 
Tongass.
    So how do you make this all work? How do you make this all 
work, not just for this year and not just for '17? If Sealaska 
is saying that they are going to need 30 years and you are 
suggesting that you are going to be able to have 62 million 
board feet, how does this all pencil out?
    Mr. Tidwell. Well it starts by the--there is--the folks in 
Alaska are working together, the state, Sealaska, folks on the 
Tongass and folks from the Mental Health Trust, to be able to 
look at how we can have, really, an all lands approach so that 
there is going to be x amount that's available for the industry 
and actually work together. This is something that you could 
say we should have been doing a better job in the past; 
however, we're looking at how we can do a better job as we move 
forward.
    And then based on that, to be able to have the coordination 
between the programs. But it's essential that we're able to 
produce. And I wouldn't be up here telling you that I, without 
any question, believe that this approach, that over time to 
transition to the young growth, is the solution to be able for 
us to continue to provide the integrated wood products industry 
in Southeast Alaska.
    And yes, we're going to have to continue to have the bridge 
timber. We're going to also have to be moving forward with some 
young growth to be able to start giving operators a chance to 
be able to explore markets, you know, with that young growth. 
And so that is our course.
    The Chairman. Well--
    Mr. Tidwell. That is our plan over time to be able to do 
this.
    The Chairman. I understand that it is a plan over time and 
again, I am trying to make something that works beyond the 
paper plan because on paper it might be possible. But again, 
you cannot push this young growth timber to grow any quicker. 
It cannot be a fantasy plan. It has to be based on accurate 
analysis and assessment and a reality on the ground.
    I continue to have the same concerns that I have had. I 
will continue to express them. It is not because I am sitting 
back here in Washington, DC, reading some talking points. It is 
because I am talking to the people that are on the ground, that 
are out in the communities, that are on Prince of Wales Island, 
who do not believe that they have the capacity to hang on much 
longer.
    They hear the good plans and they believe that it is 
nothing but pie in the sky. The effort, again, for these 
families that have worked so hard, for so many decades, and are 
not asking for the timber industry that was around 20 years 
ago, 30 years ago, they are asking to just be working with the 
facts.
    I am going to ask one more quick question and then turn to 
my colleague here, and this is regarding the proposed new, 
forest-wide standards and guidelines to address renewable 
energy development within the Tongass and the transition plan. 
You know that I had pushed for this last year, continue to do 
so, but what we are seeing is guidelines that appear to be 
pretty simplistic looking, pretty vague and therefore it causes 
me to question how effective they can be. Does the Forest 
Service plan to utilize an approach that would give greater 
clarity, more consistent, enforceable guidelines through an 
approach that has been put forward in the five year review--
that is to provide for a renewable energy LUD? Because the 
issue that I am hearing is that what the Forest Service is 
proposing just does not provide enough clarity, there is 
ambiguity that is not going to be helpful to folks.
    Mr. Tidwell. So Senator, are you referring to the 
alternatives?
    The Chairman. Yes.
    Mr. Tidwell. In the Forest Plan amendment?
    The Chairman. Yes.
    Mr. Tidwell. Well, that's one of the benefits for the 
comments that we've received. I wanted to thank you for your 
letter, that very well written letter.
    The Chairman. It was a good letter. Thank you.
    Mr. Tidwell. And it's part of the comments. And as we go 
through those, those are the things we're going to be 
addressing. But those are the things, the feedback, that we 
need on the plan, if there's things we need to change.
    You know, that being said, we have, I know that we have at 
least five projects that are approved or under construction. 
There's another seven hydro projects that we're working on with 
FERC to try to get through, plus another, I think, another 
dozen that we're still, you know, looking to start the analysis 
on.
    So we are, we're moving forward. So we're not waiting for 
the Forest Plan amendment. We're going to continue to be able 
to work with folks to be able to move forward to be able to 
implement those hydro projects.
    The Chairman. I would ask you to look to making sure that 
these standards, these guidelines really do do what we are 
hoping which is to help facilitate the renewable energy 
development projects that we are talking about.
    Let me turn to Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Chief Tidwell, I wanted to ask you about the Ascot Mine. 
Ascot Resources, a Canadian mining company, is proposing to 
conduct exploratory drilling on the Gifford Pinchot National 
Forest adjacent to Mount St. Helens National Volcanic Monument. 
The exploratory Goat Mountain Mining development could impact 
about 900 acres, and 165 of those acres of the proposed 900-
acre development were purchased by the Land and Water 
Conservation Fund.
    So you can see where I am going here. Why would the Forest 
Service allow for this proposal to move forward if you had 
already previously helped to conserve the land by purchasing it 
with the Land and Water Conservation Fund? I want to understand 
how those two things can co-exist together? I shouldn't say 
that that way. I don't believe they can co-exist, so I'm 
interested in this process that you're moving through.
    Mr. Tidwell. Well Senator, I share your concern. And I'm 
not certain on the timing of this, but I understand we acquired 
that property using LWCF a few years ago and then we have this 
mine proposal.
    So when we acquire properties they then become part of that 
national forest and the management is then covered under their 
forest plan. It raises the question for us to be thinking about 
this as we move forward to if there are, you know, areas 
depending on why this land was acquired. Was it just to block 
up ownership? Was it to provide public access? What was the key 
reason that the forest plan should assure that that, the 
purpose for acquiring the land, should still exist?
    But when we do have a, you know, a mining proposal that 
comes in on top of that, it raises the question about do we 
need to do a better job to be thinking out on these key parcels 
that are being acquired so that if it's what the public is okay 
with, then we're okay with it. But if it raises those 
questions, it's something that we need to be considering.
    This is somewhat unusual. It's happened, I think, at least 
once before that I'm aware of, when we've acquired lands and 
then had someone come in and stake a mining claim on it.
    Senator Cantwell. I am having a hard time understanding how 
we would use LWCF and not think it was for public use. I mean, 
LWCF is about protecting the public's access and interests, so 
it is hard for me to believe that a NEPA document would say 
that there is no recreational impact when literally LWCF is 
about preserving areas for recreational and public access for 
the future. That is why we are doing it because we do not want 
the development.
    Mr. Tidwell. Well, you know, mining is also part of the use 
that occurs on national forests, too, you know, so it's one of 
the challenges that we have to deal with and balance.
    Senator Cantwell. But not in conjunction with LWCF.
    Mr. Tidwell. I agree and you know, it's one of the things 
that I want to look at how we can maybe avoid these problems 
from happening, in the future. But it's--once those lands are 
acquired then they are managed as part of the national forest. 
And if they are open for mining and there's a mining claim 
then, you know, that proponent has the ability to propose an 
operation.
    Senator Cantwell. Well anyway, I am sure you will hear from 
people who believe that it has recreational value and that it 
should be stated so in a NEPA document, but we will leave that 
for now.
    I want to ask you about road maintenance. The Mount Baker-
Snoqualmie National Forest is proposing to close a number of 
its roads. I can understand closing roads that are endangering 
our watersheds, but there are a number of road closures there 
that are being proposed because of lack of maintenance funding. 
I want to understand how we can be proposing new roads when we 
have this backlog of maintenance?
    Mr. Tidwell. Well Senator, each year we build a very few 
number of roads. And often, those are roads that are to replace 
existing roads, to be able to move a road out along a stream, 
et cetera, to reduce environmental impacts. And then there's a 
few places where we do build a few roads and some are in the 
State of Alaska. But over many years the number of new roads 
that we're building is always a small number of maybe, you 
know, 10 or 15 miles per year.
    But your point about road maintenance is an issue, and we 
have a tremendous amount of backlog of deferred road 
maintenance that is contributing to not only the erosion but 
impacting the quality of our streams and our fisheries, et 
cetera, and it continues to be an outstanding problem for us.
    So as we look at which roads need to be closed we go 
through a public involvement process to identify those roads so 
that we can reduce some of the backlog of our deferred 
maintenance, reduce the impact to streams and at the same time 
still provide for a level of public access.
    Senator Cantwell. I think you have something like a 13 
percent decrease in the road maintenance funding but you have 
an existing $5 billion backlog. So to me, I do not know where 
you were talking about specifically building the new roads, but 
I am trying to understand the value because, as recreation 
supports so many jobs in our area, we certainly want to make 
sure that people are having access by the way of the 
recreational businesses for the Snoqualmie National Forest.
    What I am saying is, I am sure every day you have to make 
decisions about these issues, backlog versus new roads, but I 
am asking whether you consider the impact that that maintenance 
backlog has on recreational areas when it is such a big part of 
an economy in an area?
    Mr. Tidwell. We do, and it's one of the reasons why we sit 
down, not only with the communities but local officials and the 
public, to be able to find solutions to this problem.
    And so the majority of our road budget goes to maintenance, 
and we are proposing to spend $6 million on some new roads. I 
will be glad to provide for the record where those roads will 
be located and the purpose of those roads to be able to reduce 
environmental impacts and provide needed access for the public.
    Senator Cantwell. Thank you. I appreciate that.
    If we can dialog about the Mount Baker situation, 
specifically with the community, that would be so helpful.
    Mr. Tidwell. Yes.
    Senator Cantwell. Thank you.
    The Chairman. Thank you, Senator Cantwell.
    Chief, I just have a couple of quick, hopefully, very quick 
questions for you.
    The first relates to aviation resources and coordination 
with the states. Back in December we received testimony from 
National Association of State Foresters that during the 2015 
fire season, because of some new Federal rules, you had U.S. 
Forest Service dispatchers decline to call up state aircraft 
for fires on Federal land even when the state aircraft might 
have been closest to the fire start. We talked a lot about the 
issue of carding and different standards for aircraft used in 
fire suppression.
    Can you give me a quick update on the aircraft carding 
issues and progress on the coordination then between Forest 
Service, Department of the Interior and the states, so that we 
know that we have got one carding system out there that 
recognizes aviation standards as being equal and accepted by 
all?
    Mr. Tidwell. Madam Chair, we are working with the states to 
be able to come up with that one standard.
    The Chairman. Okay.
    Mr. Tidwell. We operate about, at least 300 to maybe 400 
helicopters and, you know, dozens of contracted aircraft that 
all do meet this one standard that the Forest Service has. That 
being said, not all the states do and so we want to ideally get 
to a point where there's just one standard so that it makes it 
easier for us to be able to use resources. And it also, you 
know, ensures that level of safety that our pilots are looking 
for and the public is looking for.
    The Chairman. Do you think that you can do that relatively 
quickly or how long of a process is this? Because again, as we 
heard in the Committee here, there is nothing that frustrates 
people more than knowing you have got an immediate issue right 
there, you know exactly what has to happen, and yet you are 
stuck because somebody does not have the proper authorization.
    Mr. Tidwell. It's going to take some time. I don't think 
this is--
    The Chairman. Like years?
    Mr. Tidwell. It may. A lot of it will depend on our 
partners in the states on their willingness to be able to come 
together on one standard.
    The Chairman. Well if there is anything we can do to help 
facilitate those conversations so that we can make that happen 
more rapidly, I think that there would clearly be interest in 
doing that.
    Let me go to an issue in Southeastern Alaska. This relates 
to Shee Atika and Cube Cove land deal. This is a situation 
where there were inholdings within Admiral T. Island for Shee 
Atika Native Corporation.
    What has been going on is there has been a long protracted 
situation, an effort for an appraisal of the lands. That was 
accomplished last October, and it was accepted by Forest 
Service and Shee Atika. That appraisal now expires in October 
unless there is a purchase option agreement that is signed 
locking in the appraisal price. What we have recently learned 
is that there is new staff at Forest Service that think an 
environmental site assessment that was conducted prior to the 
appraisal is no longer valid and needs to be redone. That would 
completely pull the rug out from under all the progress that 
has been made and the effort for Shee Atika, again, to get this 
concluded.
    I would ask you to look into this issue and determine 
whether the reassessment needs to be redone or whether it can 
simply be updated. We would really like some assistance in just 
making sure that there is a process that is smooth on this.
    If you can also look into the issue of the split ownership 
of the Cube Cove lands with regards to Sealaska. Again, a local 
issue, but it is one that has been outstanding, and it seems to 
me there is no reason that we cannot get this resolved.
    Mr. Tidwell. Well Senator, we are going to move forward. We 
do need to update that environmental study assessment which is 
a relatively quick and easy thing to do. We'll be able to get 
that done this spring, be able to move forward and get a 
purchase option. And it's my expectation that we'll be asking, 
I'll be asking, for your help for us to be able to quickly 
complete that purchase that we've been working on this for many 
years.
    The Chairman. Yes, we have.
    Mr. Tidwell. So we want to make sure we get it locked in 
this year, so we can quickly move forward to be able to 
complete that purchase.
    The Chairman. And recognizing that appraisal then expires 
in October we have got a pretty tight timeline here, so--
    Mr. Tidwell. That's why we have to get the purchase option 
in place, get that study completed and move forward to start 
acquiring the lands with the money that we currently have plus 
what we're requesting in FY17.
    The Chairman. Okay. Well let us work closely with you on 
that.
    Two very quick ones here.
    What are the Forest Service plans for offering new 
opportunities for tourism firms and wildlife bids to gain new 
or additional days for services in Region 10 both in Tongass 
and Chugach? We have received so many complaints in my office 
about the lack of new opportunities, no solicitation open 
periods. You have new operations that would love to come in and 
gain some use days. Can you tell me whether or not there are 
going to be any new solicitations for the Chugach in either '16 
or '17?
    Mr. Tidwell. I'll have to get back to you on it, on the 
Chugach.
    The Chairman. Would you?
    [The information had not been received as of the date of 
printing.]
    Mr. Tidwell. I know that we're going to move forward with 
some on the Tongass, but your point is well taken that this is 
the sort of thing we need to be able to find ways to make it 
easier and to be able to expand those operations so that more 
people can get out there. And then also it creates more jobs.
    The Chairman. Well, if you can look into that.
    It goes back to a point that I made earlier with regards to 
our request to Forest Service last year on the recreation 
dollars that come from Forest Service. Alaska has taken 
disproportionate reductions in funding over the years. You were 
directed to correct and address that. We have not seen where 
that has been remedied, and I would like an update on that as 
well.
    [The information had not been received as of the date of 
printing.]
    My final question for you this morning regards Secure Rural 
Schools (SRS).
    We were told that the payments through the extension that 
we did last year, that the payment was supposed to go out to 
the states last month for distribution. I am hearing now that 
the payments may be delayed. Can you give me any update to that 
as to when communities might expect to see their SRS payments?
    Mr. Tidwell. The payments should go out no later than next 
week.
    The Chairman. Okay, okay, and it will be as advertised, if 
you will?
    Mr. Tidwell. Yes, we did have some discussion on whether 
these payments would be subject to sequestration, and the 
determination was that they are not.
    The Chairman. That will be welcome news.
    Mr. Tidwell. So it took a little while to be able to get 
there, but that did delay things a few weeks. But we're now 
ready to move forward.
    The Chairman. Okay, good.
    Well know that is another area I know Senator Wyden and I 
and Senator Cantwell have looked to how we are going to deal 
with SRS and again making sure that these communities that are 
so reliant on these dollars are able to provide for some 
planning.
    Senator Cantwell. You know, Chief Tidwell, I just want to 
say thank you because that's so important to these communities, 
so I am sure that they will be very anxious to hear that news 
this morning and getting this revenue out to them, as I 
mentioned Skamania County, but there are many other counties in 
our state that are so dependent upon that.
    I am also eagerly awaiting your outcome on the Small 
Business Set Aside Rulemaking. I am not asking you to make 
comment here, but we are looking forward to seeing your 
comments on that.
    I know my colleagues also asked about the YMCA permit 
process and you are in the stages of finalizing that. That too, 
will be very, very important to us. I appreciate how much you 
have worked with them in the interim time since we first 
brought this up in the Committee. We will look forward to the 
details of how that process works.
    So, thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell, for bringing up 
that last point on the Set Aside. You and I had worked on that 
letter some time ago, I guess last October, but we are still 
waiting on that.
    It is not just a response to that letter. It was back in 
'13 that we had assurances that we would see something to 
correct the problem in '14. Congress urged the Forest Service 
to address this in Approps bill and then in '15 we directed 
Forest Service to act within our Interior Approps bill with the 
stewardship contracting.
    I would certainly hope that we would have some form of 
communication back from you in terms of where this is and why 
it has not been addressed. If you could get that to us, we 
would appreciate it.
    Mr. Tidwell. We'll provide the Committee on the update, the 
progress we're working through with the Small Business 
Administration on that.
    The Chairman. Okay. Thank you.
    And Chief, thank you for being here this morning. Thank you 
for your responses to the questions from all of us and thank 
you for your work. We appreciate it.
    [Whereupon, at 12:07 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                   [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
